                    Closeout Memorandum for MOO060027 (redacted)

            On 1 June 2000, a post-doctoral researcher' (complainant) sent a letter to OIG
    containing several allegations of misconduct in science and misappropriation of federal
    grant funds. A majority of the misconduct in science allegations involve a lengthy,
    acrimonious personal dispute between the complainant and a supervising professor2
    (subject). The primary complaint concerns alleged misrepresentations of the general
    living conditions at the university and surrounding community during the hiring process
    which brought the complainant to the subject's laboratory. These complaints do not
    qualify as misconduct in science.

             In addition to complaining about the general living conditions, the complainant
    states the subject did not permit student mentoring, precluded the complainant from
    budgetary decisions, and possessed insufficient knowledge of a piece of equipment
    required for the NSF research project. The student mentoring complaint focuses on an
    employment contract with the university and accordingly is not a subject for our office.
    The budgetary decisions complaint is a professional relationship issue that does not rise
    to the level of misconduct in science. This is a personal issue best handled by the
    university. The complaint concerning the equipment is interesting for the simple reason
    the subject retained the complainant as a technical expert on this type of equipment in the
    first place.

            Although the complainant's allegations of misconduct in science appear either
    suspect or simply do not concern our office, the complainant's letter contains two
    allegations of possible misappropriation of personnel salary and publications costs that
    could constitute fraud. Accordingly, this misconduct case is closed and an I-case will be
    opened to investigate the possible misappropriation of funds.




'   ' [footnote redacted].
     [footnote redacted].

                                            Page 1 of 1                                M00-27


                                                                                  '*              4
